Department of Health and Human Services
              OFFICE OF
         INSPECTOR GENERAL




   EARLY ASSESSMENT OF
     REVIEW MEDICAID
  INTEGRITY CONTRACTORS




                    Daniel R. Levinson
                     Inspector General

                      February 2012
                     OEI-05-10-00200
Executive Summary: Early Assessment of Review Medicaid Integrity Contractors
OEI-05-10-00200
WHY WE DID THIS STUDY
This study presents an early assessment of the efforts of Review Medicaid Integrity
Contractors (Review MIC) to conduct data analysis to identify potential overpayments
and provide or recommend audit leads to the Centers for Medicare & Medicaid Services
(CMS). Our objectives were: (1) to determine the extent to which Review MICs
completed assignments, recommended audit leads, and identified potential fraud; and
(2) to describe barriers that Review MICs encountered in their program integrity
activities.
HOW WE DID THIS STUDY
This study focused on Review MICs’ results for assignments made between
January 1 and June 30, 2010. We analyzed the results of Review MIC assignments,
reviewed assignment data from CMS’s Algorithm Tracking Database, and interviewed
CMS and Review MIC staff. We did not determine whether Review MIC activities
resulted in the recovery of actual overpayments.
WHAT WE FOUND
Review MICs completed 81 percent of their assignments; however, they had limited
involvement in recommending specific audit leads and identifying potential fraud. Review
MICs did not recommend specific audit leads; instead, CMS required Review MICs to
submit lists of providers ranked by the amount of their potential overpayments. Review
MIC assignments resulted in 114 accepted reports, which identified 113,378 unique
providers. CMS filtered this list of unique providers, selecting 244 audit targets. Review
MICs did not identify any potential fraud leads from their assignments.
Because data were missing or inaccurate, Review MICs were hindered in their ability to
accurately complete data analysis assignments. States invalidated more than one-third of
sampled potential overpayments from assignments, mainly because data were missing or
inaccurate. As a result, some of Review MICs’ data analyses may not lead to recoveries.
WHAT WE RECOMMEND
We recommend that CMS: (1) improve the quality of data that Review MICs can access
for conducting data analysis and (2) require Review MICs to recommend specific audit
leads.
CMS concurred with both recommendations. CMS stated that to improve the quality of
data that Review MICs can access for conducting data analysis, it has several initiatives
underway. CMS is expanding the Medicaid Statistical Information System to include
additional data elements important for detecting Medicaid fraud, waste, and abuse. CMS
is also working directly with States to obtain State Medicaid data. With respect to our
second recommendation, CMS stated that it will direct Review MICs to include specific
recommendations in their data analysis reports for followup as potential audit targets.
TABLE OF CONTENTS

Objectives ....................................................................................................1
Background ..................................................................................................1
Methodology ................................................................................................5
Findings........................................................................................................8
           Review MICs completed 81 percent of their assignments; however,
           they had limited involvement in recommending specific audit leads
           and identifying potential fraud .........................................................8
           Because data were missing or inaccurate, Review MICs were
           hindered in their ability to accurately complete data analysis
           assignments ....................................................................................12
Recommendations ......................................................................................14
           Agency Comments .........................................................................15
Appendixes ................................................................................................17
           A: Review Medicaid Integrity Contractor Assignments From the
           Centers for Medicare & Medicaid Services ...................................17
           B: Agency Comments ...................................................................19
Acknowledgments......................................................................................22
             OBJECTIVES
             1. To determine the extent to which Review Medicaid Integrity
                     Contractors (Review MIC) completed data analysis assignments,
                     recommended audit leads, and identified potential fraud.
             2. To describe barriers that Review MICs encountered in their program
                     integrity activities.

             BACKGROUND
             Medicaid is jointly funded by States and the Federal Government to
             provide certain basic services to categorically and medically needy
             populations. Medicaid spending in fiscal year (FY) 2010 totaled an
             estimated $404.9 billion, of which the Federal share was estimated at
             $271.4 billion.1 According to the Centers for Medicare & Medicaid
             Services (CMS), Medicaid spending is projected to grow because of
             anticipated increases in Medicaid enrollment. 2 These projected costs will
             strain already-burdened State and Federal budgets.
             Fraud, waste, and abuse of Medicaid unnecessarily add to program costs
             for States and the Federal Government. The Office of Inspector General
             (OIG), the Government Accountability Office, CMS, the Department of
             Justice, and State oversight agencies have uncovered millions of dollars in
             overpayments and fraudulent billing for services covered under Medicaid.
             For example, CMS projected $22.5 billion in improper payments for
             FY 2010 through its Medicaid Payment Error Rate Measurement. 3
             The Medicaid Integrity Program
             The Deficit Reduction Act (DRA) of 2005 established the Medicaid
             Integrity Program as the first comprehensive effort by CMS to fight fraud,
             waste, and abuse within Medicaid. 4 The DRA requires CMS to fight
             fraud, waste, and abuse by contracting with entities to identify
             overpayments to providers and to educate providers, managed care
             organizations, 5 and beneficiaries regarding program integrity issues. 6 The
             Medicaid Program Integrity Group within CMS is responsible for

             1
              Centers for Medicare & Medicaid Services (CMS), 2010 Actuarial Report on the Financial Outlook for
             Medicaid. Accessed at http://www.cms.gov on June 15, 2011.
             2
               CMS, 2010 Actuarial Report on the Financial Outlook for Medicaid. Accessed at http://www.cms.gov on
             June 15, 2011.
             3
               Department of Health and Human Services, FY 2010 Agency Financial Report. Accessed at
             http://www.hhs.gov on August 22, 2011.
             4
                  DRA of 2005, P.L. 109-171 § 6034, Social Security Act, § 1936, 42 U.S.C. § 1396u-6.
             5
                  Managed care organizations contract with States to provide Medicaid services.
             6
                  DRA of 2005, P.L. 109-171 § 6034(a)(2), Social Security Act, § 1936(b), 42 U.S.C. § 1396u-6.


OEI-05-10-00200             Early Assessment of Review Medicaid Integrity Contractors                                1
             administering the Medicaid Integrity Program and overseeing the
             contracted entities.
             CMS defined three types of Medicaid Integrity Contractors (MIC) to
             perform the program integrity activities listed in the DRA and to identify
             fraud, waste, and abuse: Review MICs, Audit MICs, and Education MICs.
             Review MICs review State Medicaid claims data and identify potential
             overpayments. Audit MICs conduct audits of providers and identify actual
             overpayments. Education MICs educate providers and beneficiaries on
             program integrity issues.
             Review MICs’ Task Orders
             In 2008, CMS began awarding Review MIC task orders to two firms.
             These two firms, Thomson Reuters and AdvanceMed, were awarded five
             task orders covering geographic areas that correspond to the 10 CMS
             regions across the country. 7 Task orders in effect for FY 2010 allowed
             Review MICs to earn a maximum of approximately $15 million depending
             on costs they incurred in fulfilling their task orders. CMS spent
             approximately $13.3 million on Review MICs in FY 2010.
             Within each task order, CMS defines the primary functions that Review
             MICs are tasked to perform, as follows:
             1. conducting data analysis and data modeling, and performing risk
                assessments of Medicaid data;
             2. providing or recommending leads for Audit MICs to determine
                whether any Medicaid claims identified by Review MIC data analysis
                were paid inappropriately; and
             3. detecting or preventing Medicaid fraud, waste, and abuse by
                individuals or entities furnishing items or services under Medicaid. 8
             Review MIC Identification of Potential Overpayments
             Review MIC assignments. CMS makes monthly assignments to Review
             MICs to identify potential overpayments. For each data analysis
             assignment, CMS specifies the State, type of Medicaid claims data, and
             range of service dates that Review MICs are to review. CMS also
             specifies the algorithm (i.e., data analysis model) that Review MICs are to



             7
               Thomson Reuters was awarded task orders for Regions III and IV (East and Southeast) in April 2008 and for
             Regions I and II (Northeast) in August 2009. AdvanceMed was awarded task orders for Regions VI and VIII
             (South and Mountain West) in September 2008, for Regions V and VII (Midwest) in May 2009, and for
             Regions IX and X (West and Northwest) in September 2009. CMS established a 60-day transition period for
             Review MICs after awarding each task order.
             8
                  CMS, Review of Medicaid Provider Task Orders.


OEI-05-10-00200            Early Assessment of Review Medicaid Integrity Contractors                                       2
             use to perform assignments. 9 CMS expects Review MICs to consider any
             relevant State or Federal policies, such as maximum quantity limits for
             certain drugs, to complete their assignments. CMS generally allows
             Review MICs 60 days to complete them.
             Review MICs use data sources stored within a CMS data repository
             known as the Information Technology Infrastructure (ITI) to complete
             their assignments. The ITI contains several sources of data; the primary
             source is the Medicaid Statistical Information System (MSIS). MSIS is a
             nationwide Medicaid eligibility and claims data source containing a subset
             of data elements from State data systems that States report quarterly to
             CMS. 10,11 The ITI also contains files to assist Review MICs in the analysis
             of MSIS data, such as the Social Security Administration’s Death Master
             File, medical coding files, commercial drug data files, and the National
             Provider Identifier file. 12
             Generally, Review MICs send selected samples of potential overpayments
             to the appropriate States for validation. States determine whether the
             sampled potential overpayments are valid—i.e., whether they are in fact
             overpayments—using their State data systems. States provide an
             explanation for their validation or invalidation of the sampled potential
             overpayments to Review MICs. If States invalidate more than half of
             sampled potential overpayments, CMS requires Review MICs to adjust
             their data review.
             Review MIC submission of assignment results. Once Review MICs finish
             their assignments, they enter their results into the ITI and generally submit
             Algorithm Findings Reports to CMS. In these reports, Review MICs
             describe the purpose of the assignments, provide background information
             on State policies, list the potential overpayments identified by claim and
             provider, detail States’ responses to sampled claims, and indicate whether
             any adjustments were made as a result of States’ responses. Algorithm
             Findings Reports also give Review MICs an opportunity to provide



             9
               Algorithms target specific types of potential overpayments, such as services provided after a beneficiary’s
             date of death or duplicate claims that appear to be for the same service. CMS and Review MICs are each
             responsible for developing algorithms.
             10
               MSIS data are a specified subset of fields extracted from each State’s Medicaid Management Information
             System (MMIS). MMIS enables States to process claims and monitor use of services.
             11
                MSIS includes four Medicaid claims files: (1) inpatient care; (2) long-term care; (3) prescription drugs; and
             (4) all other claims, along with files of eligible Medicaid enrollees. CMS, Medicaid Statistical Information
             System (MSIS) File Specs & Data Dictionary. Accessed at http://www.cms.gov on March 11, 2011.
             12
               The Social Security Administration’s Death Master File includes information reported by State
             Governments, funeral homes, and friends and family on the deaths of individuals registered with the Social
             Security Administration.


OEI-05-10-00200          Early Assessment of Review Medicaid Integrity Contractors                                              3
             recommendations for further action and identify specific audit leads, with
             an optional section to list any potential fraud. 13
             CMS has also periodically assigned special projects that do not require
             Review MICs to submit Algorithm Findings Reports. In some cases, CMS
             has assigned special projects to identify overpayments that would result in
             letters requesting repayment from the States rather than audits of
             providers.
             CMS requires Review MICs to store lists of all providers identified by
             completed assignments, including special projects, in the ITI. These lists
             sum the number of claims that each provider was potentially overpaid and
             rank providers by the amount of the potential overpayment.
             CMS Review of Completed Assignments
             CMS considers data analysis assignments complete once it accepts
             Review MIC results following CMS’s quality assurance review. This
             review includes an analysis of State policies, a review of the algorithms
             used by Review MICs, and verification of Review MICs’ calculation of
             potential overpayments. If an assignment fails this quality assurance
             review, CMS does not consider the assignment complete. For such
             assignments, CMS generally requires Review MICs to conduct further
             data analysis and to resubmit the results, including Algorithm Findings
             Reports.
             Related Work
             OIG is conducting a companion study that focuses on early results for
             audits assigned to Audit MICs between January 1 and June 30, 2010. That
             study will also identify any barriers Audit MICs encountered in
             conducting audits of Medicaid providers and identifying actual
             overpayments.
             In addition, OIG published a report in 2009 addressing the usefulness of
             MSIS data in detecting fraud, waste, and abuse in Medicaid. OIG found
             that MSIS did not capture all data elements that can assist in the detection
             of fraud, waste, and abuse, including those that CMS had identified as
             necessary for such detection. Data were missing from provider identifiers;
             procedure, product, and service descriptions; billing information; and
             beneficiary and eligibility information. 14




             13
               The section on fraud became a required section of the Algorithm Findings Report in December 2010, which
             was after the period reviewed by this study.
             14
                  OIG, MSIS Data Usefulness for Detecting Fraud, Waste, and Abuse, OEI-04-07-00240, August 2009.


OEI-05-10-00200           Early Assessment of Review Medicaid Integrity Contractors                                  4
             METHODOLOGY
             Scope
             This study is an early assessment of the results of Review MICs’ program
             integrity activities and barriers that Review MICs encountered when
             performing those activities. This study focused on Review MICs’ program
             integrity activities conducted between January 1 and June 30, 2010. We
             selected January 1, 2010, as the beginning of our review period to allow all
             Review MICs to have completed the 60-day transition periods for their task
             orders. We selected June 30, 2010, as the end of our review period to create a
             6-month review period upon which to base our findings.
             This study did not evaluate the effectiveness of the Medicaid Integrity Program
             overall, nor did it evaluate the effectiveness of CMS’s policies and procedures
             concerning Review MIC assignments and CMS’s selection of audit targets.
             Instead, we focused on the results of Review MICs’ program integrity activities
             and any barriers that Review MICs encountered when performing them.
             In addition, we did not determine whether Review MICs’ activities to identify
             fraud, waste, and abuse resulted in the recovery of overpayments. Because of
             the amount of time required for Audit MICs to conduct audits, few—if any—
             assignments made during our review period would have resulted in final audits
             or recoveries by the end of our data collection.
             Data Sources
             Data collection. We collected data from CMS concerning Review MICs’ data
             analysis assignments made between January 1 and June 30, 2010. We collected
             these data between November and December 2010, which allowed enough time
             for the completion of all data analysis, given the typical 60-day deadline for
             completing assignments. Specifically, we collected:
                  •   Assignment data from CMS’s Algorithm Tracking Database. This
                      database contains the algorithm, the responsible Review MIC, the State
                      under review, milestone dates, status of assignments, and summary
                      overpayment results for each assignment. CMS maintains the
                      Algorithm Tracking Database to track the progress and results of
                      Review MIC assignments. There were 361 assignments from our
                      review period listed in this database.
                  •   ITI files for completed assignments. The ITI contains lists of providers
                      and potential overpayment data identified by completed assignments.
                      These files include the unique provider identification number and the
                      amount of potential overpayment for each provider identified in each
                      completed assignment. There were 274 completed assignments with



OEI-05-10-00200       Early Assessment of Review Medicaid Integrity Contractors         5
                       data files in the ITI. Seventeen completed assignments did not have
                       files in the ITI because they had no or low findings.
                  •    Algorithm Findings Reports for completed assignments. These reports
                       include descriptions of the problems identified, the number of providers
                       and amount of potential overpayments identified, results from States’
                       validation of sampled potential overpayments, any audit leads
                       recommended, and any identified potential fraud leads. There were
                       114 completed assignments that resulted in Algorithm Findings
                       Reports. 15
                  •    Audit targets selected from completed assignments. Audit targets are
                       identified by their unique provider identification numbers and include
                       the assignments in which they were identified as well as the amount of
                       potential overpayments to be audited. CMS selected 244 audit targets.
             Interviews. We conducted structured interviews with staff from each Review
             MIC and from CMS to identify barriers that Review MICs encountered when
             conducting program integrity activities. These interviews also included
             questions about Review MIC results, including the identification of audit leads
             and the identification of potential fraud leads.
             Data Analysis
             Algorithm Tracking Database. Using the Algorithm Tracking Database, we
             analyzed assignments that Review MICs received between January 1 and
             June 30, 2010. We determined whether each assignment was complete,
             ongoing, placed on hold by CMS, or rejected by CMS as of November 1, 2010.
             ITI. We analyzed data files in the ITI that Review MICs submitted for
             completed assignments identifying providers and their potential overpayments.
             Because some providers were identified in multiple assignments, we
             determined the unique providers identified by Review MICs across all data
             files. We calculated each unique provider’s total potential overpayment
             amount across all completed assignments.
             In the case of some regular assignments with algorithms intended to identify
             services provided after a beneficiary’s date of death, CMS reassigned the
             algorithms with new ranges of service dates for Review MICs to analyze as
             part of a nationwide special project. For providers identified in both regular
             assignments and special project assignments, we counted only the potential
             overpayments identified by Review MICs in the regular assignments.



             15
                We received Algorithm Findings Reports for 113 assignments. One additional assignment resulted in an
             Algorithm Findings Report, but the report was not provided to OIG. However, for this assignment, we did
             receive the results and sufficient evidence that an Algorithm Findings Report had been submitted to CMS.


OEI-05-10-00200         Early Assessment of Review Medicaid Integrity Contractors                                       6
             Algorithm Findings Reports. For completed assignments that resulted in final
             Algorithm Findings Reports, we analyzed the reports to determine whether
             Review MICs recommended specific audit leads or identified potential fraud
             leads to CMS. We also reviewed final Algorithm Findings Reports to
             determine which algorithms CMS defined as identifying potentially improper
             or fraudulent billing patterns. Further, we calculated the percentage of sampled
             claims that States invalidated as potential overpayments.
             Audit targets. We analyzed the providers that CMS selected as audit targets by
             December 2010. These audit targets were selected from the lists Review MICs
             provided in Algorithm Findings Reports for assignments made between
             January 1 and June 30, 2010. Because some providers were selected from
             multiple Algorithm Findings Reports, we identified the unique audit targets
             selected by CMS across all Algorithm Findings Reports. We then calculated
             the amount of potential overpayments CMS selected to be audited for each
             unique audit target.
             Interviews. We analyzed the results of structured interviews with staff from
             each Review MIC and CMS to determine whether the two Review MICs
             encountered the same obstacles when conducting program integrity activities.
             We also analyzed these structured interviews to determine whether Review
             MICs recommended audit leads or identified potential fraud leads.
             Standards
             This study was conducted in accordance with the Quality Standards for
             Inspection and Evaluation issued by the Council of the Inspectors General on
             Integrity and Efficiency.




OEI-05-10-00200      Early Assessment of Review Medicaid Integrity Contractors         7
                      FINDINGS
                      Review MICs completed 81 percent of their
                      assignments; however, they had limited involvement
                      in recommending specific audit leads and identifying
                      potential fraud
                      Review MICs were tasked with 361 data analysis assignments by CMS
                      between January 1 and June 30, 2010. The 361 assignments covered
                      every State plus the District of Columbia and used 31 distinct algorithms.
                      Sixty-two percent of assignments used algorithms intended to identify
                      services provided after a beneficiary’s date of death. Other assignments
                      used algorithms intended to identify duplicate billing, pharmacy errors,
                      and excessive amounts of services. See Appendix A for additional detail
                      on Review MIC assignments.
                      Review MICs completed 81 percent of assignments (either regular or
                      special project assignments). Nearly all completed assignments were
                      completed within the assigned timeframes. Seventeen percent of
                      assignments were placed on hold by CMS. The remaining 3 percent were
                      ongoing and had passed the assigned completion dates or were rejected by
                      CMS. See Chart 1 for a breakdown of the status of assignments as of
                      November 2010.


         Chart 1:
                                                           1%
Status of Review
MIC Assignments                                                              17%
 as of November
           2011*
                                                                                          Assigned and
                                                                                     2%   Ongoing
                                                                                          On Hold

                                                                                          Rejected

                                                                                          Completed



                                    81%



                    Source: OIG analysis of Review MIC assignments, 2011.
                    *Percentages do not add up to 100 percent because of rounding.




        OEI-05-10-00200           Early Assessment of Review Medicaid Integrity Contractors              8
             The 291 completed assignments fall into 3 categories. Forty percent, or
             one hundred fourteen assignments, were completed assignments that
             resulted in Algorithm Findings Reports. An additional 172 completed
             assignments were for a special project to identify services billed after
             beneficiaries’ date of deaths. These special project assignments were not
             expected to lead to Algorithm Findings Reports or audit leads. The
             remaining five completed assignments were other special project
             assignments.
             Review MICs did not recommend specific audit leads; instead,
             CMS required Review MICs to submit lists of providers ranked
             by the amount of their potential overpayments
             For the 114 data analysis assignments that resulted in Algorithm Findings
             Reports, Review MICs ran the assigned algorithms and provided CMS
             with the results. The results consisted of lists of providers ranked by the
             amount of their potential overpayments. Fifty-two percent of the
             Algorithm Findings Reports also contained a separate list of top providers
             ranked by the amount of potential overpayments. None contained specific
             recommendations for audit leads.
             The Algorithm Findings Reports contained 113,378 unique providers with
             $282 million in potential overpayments. The number of providers ranged
             from zero to nearly 86,000. The $282 million in potential overpayments
             were generated by approximately 1 million claims for services covered
             under Medicaid.
             Although the amount of potential overpayments for each provider varied,
             most potential overpayments were modest. Eighty-nine percent of
             providers included in the ranked lists each had less than $1,000 in
             potential overpayments, including 107 providers with $0 in potential
             overpayments. At the high end of the range, one provider had more than
             $3.6 million in potential overpayments.
             The specific providers included in the separate lists of top providers do not
             appear to be recommended audit leads. For example, one Algorithm
             Findings Report in Rhode Island had a top provider list on which the top
             provider had $69,000 in potential overpayments and the last 5 providers
             all had under $1,000 in potential overpayments. An Algorithm Findings
             Report in Utah listed all 7 providers identified by the assignment in the
             top provider list, including a provider with $992 in potential overpayments
             and a provider with only $20 in potential overpayments.




OEI-05-10-00200      Early Assessment of Review Medicaid Integrity Contractors           9
                 Instead of requiring Review MICs to provide specific audit
                 leads, CMS selected 244 audit targets from the full lists of
                 113,378 providers
                 CMS selected 244 audit targets with $39.8 million in potential
                 overpayments, covering a retrospective 5-year audit period established by
                 CMS. 16 Of the 244 audit targets, 133 were in the top 10 providers
                 identified by Review MICs in any given assignment. Forty-nine of the
                 244 audit targets had total potential overpayments of over $100,000 each
                 for the 5-year audit period. The majority of audit targets, or 182 audit
                 targets, had between $10,000 and $100,000 in potential overpayments.
                 See Table 1 for a breakdown of the potential overpayments of providers
                 selected as audit targets.
       Table 1: Providers Selected by CMS for Audits as of December 2010
                                             Number of                  Number of                Total Potential
        Amount of Potential
                                     Providers Identified       Providers Selected               Overpayments
        Overpayment
                                        by Review MICs           by CMS for Audits           Selected for Audits
        $1 million to
                                                         32                          7               $17.7 million
        $3.6 million
        $100,000 to
                                                        475                         42                 $15 million
        $999.999
        $10,000 to $99,999                              905                        182                 $7.1 million
        $1,000 to $9,999                            10,725                           8                    $39,000
        $1 to $999                                 101,134                           5                      $2,000
        $0                                              107                          0                          NA
             Total                                 113,378                         244              $39.8 million

       Source: OIG analysis of Review MIC assignments, 2011.


                 CMS took multiple steps to select the 244 audit targets to pass on to Audit
                 MICs. The first step was to conduct quality assurance reviews on all
                 submitted Algorithm Findings Reports. This resulted in the acceptance of
                 114 reports, which identified 113,378 unique providers. The quality
                 assurance reviews included analyzing State policies, which Review MICs
                 are expected to consider when completing their assignments. The quality
                 assurance reviews also included reviewing the algorithms used by Review
                 MICs and verifying Review MICs’ calculation of potential overpayments.
                 CMS categorized assignments as complete once they passed its quality
                 assurance review.
                 After categorizing the 114 Algorithm Findings Reports as complete, CMS
                 had to filter the 113,378 unique providers to determine which of the audit
                 leads would make suitable audit targets. CMS considered all
                 113,378 unique providers listed by Review MICs to be audit leads. Of the


                 16
                    CMS established a 5-year audit period because most States require providers to maintain records for at least
                 5 years.


OEI-05-10-00200              Early Assessment of Review Medicaid Integrity Contractors                                        10
             244 audit targets selected from the ranked lists of providers, 111 were not
             in the top 10 providers identified by Review MICs for any given
             assignment.
             In selecting audit targets, CMS considered a variety of factors. For
             example, CMS officials reported that they considered the number of
             ongoing audits in the relevant State and the number of audits assigned to
             the responsible Audit MIC when selecting the 244 audit targets. CMS
             then screened the audit targets to ensure that they were not being audited
             or were not under investigation by States or by other Federal entities, such
             as OIG and the Department of Justice.
             For more than half of the 244 audit targets, CMS also had to adjust the
             potential overpayments reported by Review MICs. CMS removed
             potential overpayments reported by Review MICs that occurred beyond
             the 5-year audit period. Ultimately, CMS removed more than $5.6 million
             from the $45.5 million in potential overpayments that Review MICs
             attributed to the 244 audit targets, leaving $39.8 million in potential
             overpayments.
             Review MICs did not identify any potential fraud leads
             Both a review of Algorithm Findings Reports and interviews with Review
             MIC and CMS staff revealed that Review MICs did not identify any
             potential fraud leads to CMS from assignments made between
             January 1 and June 30, 2010. However, for 20 assignments, Review MICs
             were assigned algorithms that CMS described as identifying potentially
             improper or fraudulent billing patterns. For these 20 assignments, all of
             which were completed, Review MICs listed 11,097 unique providers in
             their results.
             CMS officials stated that they have formalized the process for Review
             MICs to identify potential fraud leads. In December 2010, CMS began
             requiring Review MICs to include a section in the Algorithm Findings
             Reports for identifying any potential fraud leads. In this section, Review
             MICs can identify those providers that the Review MIC feels should be
             investigated by CMS in more detail for potential referral to law
             enforcement.




OEI-05-10-00200      Early Assessment of Review Medicaid Integrity Contractors         11
             Because data were missing or inaccurate, Review
             MICs were hindered in their ability to accurately
             complete data analysis assignments
             Review MICs identified problems with data that limited their ability to
             accurately complete their data analysis assignments. During interviews,
             staff from Review MICs and CMS identified data elements missing from
             the MSIS data used by Review MICs that are important for conducting
             program integrity activities. For example, MSIS data lack provider
             identification and are missing adjustments that corrected payments. 17 OIG
             also identified these data elements, as well as service descriptions and
             beneficiary information, as missing from MSIS and vital to program
             integrity activities. 18
             Recognizing MSIS’s shortcomings and needing to implement changes
             required by the Patient Protection and Affordable Care Act of 2010, CMS
             is making efforts to upgrade MSIS. 19 CMS intends to replace MSIS with
             an expansion known as Transformed MSIS (T-MSIS), which will include
             new data and should be updated more frequently than MSIS. 20 According
             to CMS staff, the effort to upgrade the system began in 2007 and a pilot
             project of T-MSIS began in 10 States during late summer 2011. CMS
             anticipates that T-MSIS will be operational in 2014.
             States invalidated more than one-third of sampled potential
             overpayments from assignments, mainly because data were
             missing or inaccurate
             Of the potential overpayments that Review MICs submitted, States
             asserted—after comparing the Review MIC-provided information with
             information in their State data systems—that 34 percent were not
             overpayments. For many of their completed data analysis assignments,
             Review MICs selected a sample of individual claims that they identified as
             potential overpayments and submitted them to States for validation.
             States invalidated results from Review MIC assignments because the
             results did not match information in the States’ data systems. State data
             systems are more up to date than MSIS and contain data elements missing
             from MSIS, which is an extract of State data systems. Data from State
             systems are not available to Review MICs because they are not loaded into
             the ITI, which CMS requires Review MICs to use for data analysis.

             17
                Adjustments may be made to claims data that affects payment of those claims. If adjustments are made after
             States submit data for MSIS, those adjustments would not be reflected in the data Review MICs can access.
             18
                  OIG, MSIS Data Usefulness for Detecting Fraud, Waste, and Abuse, OEI-04-07-00240, August 2009.
             19
                  Patient Protection and Affordable Care Act of 2010, P.L. 111-148 § 6504(a), 42 U.S.C. 1396b(r)(1)(F).
             20
                CMS, Annual Report to Congress on the Medicaid Integrity Program for Fiscal Year 2010. Accessed at
             http://www.cms.gov on August 22, 2011.


OEI-05-10-00200            Early Assessment of Review Medicaid Integrity Contractors                                      12
             Of all of the Review MIC-identified potential overpayments that Review
             MICs submitted to States for review, the assignment type that resulted in
             the highest percentage of invalidated potential overpayments was for
             assignments intended to identify services provided after a beneficiary’s
             date of death. For the 37 completed regular assignments intended to
             identify such services during our review period, States invalidated an
             average of 67 percent of the potential overpayments submitted by Review
             MICs. In many cases, States invalidated potential overpayments because
             Review MICs had identified them using MSIS data that had not been
             adjusted to reflect final payment information. Another reason why States
             invalidated potential overpayments was that State files showed different
             dates for beneficiaries’ deaths than did the Social Security
             Administration’s Death Master File used by Review MICs.
             Because data were missing or inaccurate, CMS invalidated a
             special project identifying services provided after beneficiaries’
             deaths
             A nationwide special project performed by Review MICs to identify
             services provided after a beneficiary’s date of death will not yield any
             recoveries for States or the Federal Government. The special project
             consisted of 172 assignments that identified $113 million in potential
             overpayments. The special project was a nationwide expansion of the
             37 completed regular data analysis assignments intended to identify
             services provided after a beneficiary’s date of death. The $113 million in
             potential overpayments was in addition to the potential overpayments
             identified in the 37 completed regular assignments. The goal of the
             special project was to identify overpayments for immediate collection
             from States.
             CMS decided to invalidate the special project after reassessing the MSIS
             data used by Review MICs. An OIG audit assessing the same types of
             potential overpayments in California found $273,000 in overpayments, a
             lower amount than that found by Review MICs during the special
             project. 21 After reassessing the results of the special project and holding
             discussions with OIG staff, CMS determined that the MSIS data used by
             Review MICs did not include payment and billing adjustments and other
             variables that potentially invalidated some of the overpayments identified
             by Review MICs. In contrast, the State data used by OIG contained the
             payment and billing adjustments and other variables missing from MSIS.




             21
               OIG, Review of Medicaid Payments for Services Claimed for Deceased Beneficiaries in California,
             A-09-09-00110, June 2010.


OEI-05-10-00200         Early Assessment of Review Medicaid Integrity Contractors                                13
             RECOMMENDATIONS
             Review MICs’ task orders with CMS state that Review MICs are to:
             (1) conduct data analysis, (2) provide or recommend audit leads, and
             (3) detect and prevent Medicaid fraud. However, during our review
             period, Review MICs only conducted data analysis and provided lists of
             providers ranked by the amount of their corresponding potential
             overpayments. Review MICs did not single out any individual providers
             on their lists either as specific audit leads or as providers having
             potentially fraudulent billing patterns.
             Further, the fact that data were missing or inaccurate compromised
             Review MICs’ ability to accurately perform data analysis. Because States
             and CMS determined that Review MICs incorrectly identified some
             potential overpayments, some of the Review MICs’ assignments may not
             lead to recoveries.
             This study was an early assessment of the results of Review MICs
             activities; therefore, our recommendations focus on increasing Review
             MICs’ contribution to protecting the integrity of Medicaid payments. We
             make the following recommendations to CMS:
             Improve the quality of data that Review MICs can access for
             conducting data analysis
             Because data were missing or inaccurate, Review MICs inaccurately
             identified potential overpayments and may have overlooked some
             potential overpayments. Review MICs’ ability to accurately identify
             overpayments that result in actual recoveries for States and the Federal
             Government depends on accurate data.
             One option for CMS to improve the quality of data available to Review
             MICs is to facilitate their access to States’ Medicaid data systems. As the
             responsible parties for administering their Medicaid programs, States use
             their Medicaid data systems to process and monitor claims. These systems
             contain more timely information than MSIS and contain adjustments that
             are not included in MSIS because it is a quarterly extract of State
             Medicaid data systems. Using State systems to conduct analysis should
             enable Review MICs to improve the accuracy of their results. Along these
             lines, CMS has already initiated a project in which a Review MIC is using
             Louisiana’s Medicaid data system.
             Another option for CMS to improve the quality of data that Review MICs
             can access is to implement T-MSIS. T-MSIS should improve the accuracy
             of Review MICs’ identification of potential overpayments because it is
             intended to contain more data elements and will be updated more



OEI-05-10-00200      Early Assessment of Review Medicaid Integrity Contractors          14
             frequently than MSIS. However, T-MSIS will still be an extract of State
             Medicaid data systems.
             Require Review MICs to recommend specific audit leads
             CMS should require Review MICs to conduct the analysis necessary to
             recommend specific audit leads to CMS that have the best potential for
             recoveries of State and Federal overpayments. Beyond ranking providers
             by potential overpayments, Review MICs did little to filter the lists of
             providers generated from their data analysis assignments. As a result,
             Review MICs provided CMS with 113,378 unique providers, from which
             CMS selected 244 audit targets.
             Requiring Review MICs to recommend specific audit leads would help
             CMS improve upon the value of the Review MIC’s contribution to the
             Medicaid Integrity Program. CMS could focus less of its resources on
             filtering audit leads and more on screening and assigning audit targets,
             tasks Review MICs are not in a position to accomplish.
             This recommendation is another step in line with those CMS has already
             taken to improve the Medicaid Integrity Program. CMS has already
             strengthened fraud identification and reporting by clarifying the process
             for Review MICs and requiring that all Algorithm Findings Reports have a
             section identifying any potential fraud leads. Increasing the expectations
             for Review MICs to conduct more sophisticated filtering of providers,
             beyond ranking them by the amount of potential overpayments, would
             similarly improve the effectiveness of the Medicaid Integrity Program. It
             would also align with one of CMS’s five strategic goals for program
             integrity: to use advanced technology and data analysis to prevent and
             detect fraud, waste, and abuse. 22

             AGENCY COMMENTS
             CMS concurred with both recommendations. CMS stated that to improve
             the quality of data that Review MICs can access for conducting data
             analysis, it has several initiatives underway. CMS has established the
             Medicaid and Children’s Health Insurance Program Business Information
             and Solutions governance body to oversee the development and
             deployment of improved data systems for Medicaid program integrity and
             oversight. The development of improved data systems includes expanding
             the MSIS dataset to include data elements important for detecting
             Medicaid fraud, waste, and abuse.



             22
                CMS, Annual Report to Congress on the Medicaid Integrity Program for Fiscal Year 2010. Accessed at
             http://www.cms.gov on August 22, 2011.


OEI-05-10-00200         Early Assessment of Review Medicaid Integrity Contractors                                    15
             In addition to expanding MSIS, CMS is working directly with States to
             obtain Medicaid data from MMIS. Further, CMS indicated that it plans to
             load State MMIS data for Texas, Oklahoma, and Colorado into the ITI by
             2012. These data would then be available for Review MICs to analyze.
             With respect to our second recommendation, to require Review MICs to
             recommend specific audit leads, CMS stated that it will direct Review
             MICs to include specific recommendations in their data analysis reports
             for followup as potential audit targets. CMS stated that it began in
             December 2010 to provide Review MICs with more explicit directions on
             recommending next steps and will extend this to include specific
             recommendations for potential audit targets.
             We made revisions to the report based on CMS’s technical comments.
             For the full text of CMS’s comments, see Appendix B.




OEI-05-10-00200     Early Assessment of Review Medicaid Integrity Contractors     16
                     APPENDIX A
                     Review Medicaid Integrity Contractor* Assignments From the
                     Centers for Medicare & Medicaid Services**
Table A-1: Breakdown of Algorithms Assigned To Review MICs by Algorithm Model
                                                                                    Number of        Amount of
                                     Billing Issue         Algorithm    Frequency
Algorithm      Service Type                                                          Providers         Potential
                                     Reviewed              Source        Assigned
                                                                                     Identified    Overpayment
               Adult day health      Inappropriate
1                                                          Review MIC          3           162           $381,491
               care                  service setting
               Ambulance             Inappropriate
2                                                          Review MIC          1           186           $250,084
               services              service setting
3              Dental services       Excessive services    Review MIC          1           172            $28,129
               Durable medical       Excessive
4                                                          CMS                 1           193         $3,049,847
               equipment             equipment rental
                                     Inappropriate
5              Hospice services                            CMS                 1             0                  $0
                                     service setting
6              Inpatient services    Duplicate billings    CMS                 8            15           $718,548
7              Inpatient services    Duplicate billings    Review MIC          1             0                  $0
8              Inpatient services    Duplicate billings    CMS                 8           506       $42,824,192
                                     Inappropriate
9              Inpatient services                          CMS                 1             0                  $0
                                     service setting
                                     Inappropriate
10             Inpatient services                          CMS                 3         1,410      $175,757,413
                                     service setting
                                     Inappropriate
11             Inpatient services                          CMS                 6            90       $11,431,554
                                     service setting
                                     Services after
12             Inpatient services                          CMS                56           637         $5,244,583
                                     death
               Long-term-care
13                                   Duplicate billings    CMS                10             1             $5,880
               services
               Long-term-care        Services after
14                                                         CMS                54         2,095       $18,809,573
               services              death
               Outpatient
15                                   Duplicate billings    CMS                 2            81            $47,790
               services
               Outpatient            Inappropriate
16                                                         CMS                 8         2,356         $5,092,533
               services              service setting
               Outpatient
17                                   Medically unlikely    CMS                 4           584         $4,450,428
               services
               Outpatient            Services after
18                                                         CMS                59        38,531       $83,850,039
               services              death
               Outpatient
19                                   Upcoding              Review MIC         11         3,994         $4,398,115
               services
               Personal care         Inappropriate
20                                                         Review MIC          9        87,031       $28,387,694
               services              service setting
               Pharmacy
21                                   Duplicate billings    CMS                 6         1,573         $1,950,520
               services
               Pharmacy
22                                   Early refill          CMS                 5         1,783           $479,936
               services
               Pharmacy
23                                   Early refill          CMS                 5         5,603         $7,207,701
               services
               Pharmacy
24                                   Early refill          CMS                 9         3,617         $6,616,698
               services
               Pharmacy
25                                   Inaccurate quantity   CMS                 8           109           $971,130
               services
*Review MIC.                                                                                 continued on next page
**CMS.




OEI-05-10-00200                   Early Assessment of Review Medicaid Integrity Contractors                     17
Table A-1: Breakdown of Algorithms Assigned To Review MICs by Algorithm Model (continued)
                                                                                            Number of       Amount of
                                       Billing Issue            Algorithm       Frequency
Algorithm      Service Type                                                                  Providers        Potential
                                       Reviewed                 Source           Assigned
                                                                                             Identified   Overpayment
               Pharmacy
26                                     Overprescribed           CMS                   12           977      $1,555,820
               services
               Pharmacy
27                                     Overprescribed           CMS                    8         6,096        $720,663
               services
               Pharmacy
28                                     Overprescribed           Review MIC             3            21      $1,212,489
               services
               Pharmacy                Services after
29                                                              CMS                   55        10,544     $10,618,722
               services                death
               Psychotherapy
30                                     Excessive time           Review MIC             2             7         $91,678
               services
31             Therapy services        Ineligible billing       Review MIC             1           166      $2,516,189
Source: Office of Inspector General analysis of Review MIC assignments, 2011.




OEI-05-10-00200                   Early Assessment of Review Medicaid Integrity Contractors                         18
                           APPENDIX B
                           Agency Comments



      /"'''''''' ...
  (       ~              DEPARTMENT OF HEALTH & HUMAN
                                                    ___R_V_IC_E_S
                                                      SE        _ __ _ _ __                        Cent9_
                                                                                                   _ _ IS_fO_f _
                                                                                                               M9dic__
                                                                                                                 _ _ sre &__9_
                                                                                                                          M dicald_S_91V_i_
                                                                                                                               __         c&S
                                                                                                                                            _

      ,~"'-	                                                                                       Administrator
                                                                                                   Washington, DC 20201




                       DATE:            NOV 0 2 2011

                       TO: 	          Daniel R, Levinson 

                                      Inspector General 

                                                                /S/
                       FROlWr 	       Su"mrla ~IC'k, !'VI,l), 

                                      Administrat~r 



                       SUBJECT: 	 Office ofinspector General (DIG) Draft Report: "Early Assessment of Review
                                  Medicaid Integrity Contractors" (OEI-05-1 0-00200)


                       The Centers for Medicare & Medicaid Services (CMS) appreciates the opportunity to comment
                       on this subject Office of Inspector General (01 G) draft report. The objectives of the report were:
                       1) to determine the extent to which Review Medicaid Integrity Contractors (Review MICs)
                       completed assignments, recommended audit leads, and identified potential fraud and 2) to
                       describe barriers that Review MICs encountered in their program integrity activities.

                       The DIG found that Review MICs completed 81 percent of their assignments, but had limited
                       involvement in recommending specific audit leads and identifying potential fraud. OIG also
                       found that missing or inaccurate data hindered Review MICs' ability to accurately complete
                       assignments.

                       We appreciate DIG's efforts in working with CMS to assess the results of Review MICs'
                       program integrity activities and identifying the barriers that Review MICs have encountered in
                       performing those activities. Our response to each of the OIG recommendations follows .

                       OIG Recommendation

                       The CMS should improve the quality of data that Review MICs can access for conducting data
                       analysis.

                       CMS Response

                       The CMS concurs that improving the quality of Medicaid claims data accessible to Review MICs
                       would significantly increase the accuracy of identifying potential overpayments. CMS has
                       several initiatives underway to improve the quality of data available for program integrity efforts,
                       and we will continue to work to provide program integrity contractors with access to better
                       quality Medicaid data.




OEI-05-10-00200                        Early Assessment of Review Medicaid Integrity Contractors                                                19
OEI-05-10-00200   Early Assessment of Review Medicaid Integrity Contractors   20
OEI-05-10-00200   Early Assessment of Review Medicaid Integrity Contractors   21
             ACKNOWLEDGMENTS
             This report was prepared under the direction of Ann Maxwell, Regional
             Inspector General for Evaluation and Inspections in the Chicago regional
             office; Thomas F. Komaniecki, Deputy Regional Inspector General; and
             Laura Kordish, Deputy Regional Inspector General.
             Mark Stiglitz served as the team leader for this study and Benjamin
             Dieterich served as lead analyst. Other principal Office of Evaluation and
             Inspections staff from the Chicago regional office who contributed to the
             report include Leigh Pylman and Cassandra Yarbrough; central office staff
             who contributed include Kevin Manley, Antigone Potamianos, and
             Andrew VanLandingham.




OEI-05-10-00200      Early Assessment of Review Medicaid Integrity Contractors       22
                      Office of Inspector General
                                         http://oig.hhs.gov

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out through
a nationwide network of audits, investigations, and inspections conducted by the following operating
components:

Office of Audit Services
The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all
50 States and the District of Columbia, OI utilizes its resources by actively coordinating with the
Department of Justice and other Federal, State, and local law enforcement authorities. The investigative
efforts of OI often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides other
guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
